U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Howard L. Baldwin, et ux v. United States of America,
S.CtNo. 19-402

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
23, 2019, and placed on the docket on September 25, 2019. The government's response is due
on October 25, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 25, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0402
BALDWIN, HOWARD L., ET UX
USA

ANTHONY T. CASO
CHAPMAN UNIVERSITY FOWLER SCHOOL OF
LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
714-628-2650
CASO@CHAPMAN.EDU
ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-908-6202
ADITYA.DYNAR@GMAIL.COM
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
ROBERT W. KEASTER
CHAMBERLIN & KEATSER LLP
16000 VENTURA BOULEVARD
SUITE 301
ENCINO, CA 91436

JOHN PAGLIARO
NEW ENGLAND LEGAL FOUNDATION
150 LiNCOLN STREET
BOSTON, MA 02111
617-695-3666
JOWPAGLIARO@NELFONLINE .ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
JOHN J. VECCHIONE
CAUSE OF ACTION INSTITUTE
1875 EYE STREET, NW
SUITE 800
WASHINGTON, DC 20006
202-499-2415
JOHN.VECCHIONE@CAUSEOFACTION.ORG
LUKE ANTHONY WAKE
NFIB SMALL BUSINESS LEGAL CENTER
1201 FST.,NW
#200
WASHINGTON, DC 20004
800-552-5342
LUKE.WAKE@NFIB.ORG

